           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    THE EFFECTIVENESS OF THE
         SOCIAL SECURITY
    ADMINISTRATION’S 800-NUMBER
       AUTOMATION SERVICE


   October 2007    A-02-07-17049




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      October 19, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Effectiveness of the Social Security Administration’s 800-Number Automation
           Service (A-02-07-17049)

           OBJECTIVE

           Our objective was to review the effectiveness of the Social Security Administration’s
           (SSA) 800-number automated service system.

           BACKGROUND

           SSA maintains a national 800-number for individuals to file claims, update records and
           request information about SSA’s programs. Since becoming available nationwide in
           1989, SSA’s 800-number has become a principal contact point for individuals seeking
           Agency services. Although the public has a variety of other options (Internet, field
           offices [FO], etc.) to obtain information or conduct business with SSA, most customers
           conduct their business with SSA by telephone. In Fiscal Year (FY) 2006, SSA reported
                                                                                                 1
           that there were 59,475,747 transactions handled by the national 800-number network.
           The 800-number’s telecommunications services are currently provided under contract
           by Verizon Business.

           To keep pace with the growing demand for its 800-number service, the Agency
           expanded the automated service options to reduce the number of calls going to agents
           and time spent waiting to speak to an agent. To that end, callers to the 800-number
           may use a self-service menu of automated services or request to speak with an agent.
           The 800-number automated system offers a variety of services, in English or Spanish,
           24 hours a day, 7 days a week. Callers can request pamphlets and forms in addition to
           obtaining information, such as business hours and locations of nearby FOs.

           An August 2005 Government Accountability Office (GAO) report stated “since 2002,
           SSA’s 800-number automated menus have received progressively higher call volumes



           1
            Social Security Administration’s Performance and Accountability Report for Fiscal Year 2006,
           Performance Section, p. 86.
Page 2 - The Commissioner


but handled fewer calls to completion.” 2 GAO further reported that “the number of calls
being abandoned without completing a transaction in the automated menus has
steadily increased, culminating in 2004, when nearly half of calls to automation were
abandoned.” 3 The GAO report indicated that, although SSA offered a number of
reasons why fewer calls were being handled to completion, it was unable to say with
certainty why calls continued to be abandoned. 4

To meet our audit objective, we analyzed and compared the 800-number’s automated
service system data for March 2006 and 2007 to identify trends in caller outcomes and
differences in performance of individual service options. We also interviewed
800-number officials to obtain an understanding of the Agency’s data collection
methodology used to track, monitor, and report on the automated system. Lastly, we
reviewed the Agency’s contracts for 800-number services to determine the contractual
obligations of its telecommunications provider for 800-number related management
information. See Appendix B for additional background, information and details of our
audit scope and methodology.

RESULTS OF REVIEW

We found the service provided by SSA’s 800-number automated system has improved.
However, SSA can further improve the automated system to better meet the needs of
its customers. While automated services were introduced to lessen the call burden on
live agents and provide additional services to SSA’s customers, a similar percentage of
calls to the 800-number were placed with live agents over the last 2 FYs, and many
callers who used the 800-number automated services did not complete their calls in
automation. These callers either hung up or were re-routed to live agents. The
automated services are not cost-effective when calls are not completed because SSA
pays for customers’ use of the automated services whether they use it successfully or
not. Also, unsuccessful use of the automated services can lead to additional charges
since customers are often routed to, or call back to speak with, a live agent. In addition,
Spanish-language callers had a far higher rate of hanging up in the automated system
than English-language callers. We attempted to determine the reasons for the high
rate of incomplete calls but found that SSA’s management information on callers did
not provide detailed caller data to facilitate follow up. Lastly, we found SSA did not
have performance measures and goals to determine the effectiveness of its automated
800-number system.




2
  GAO-05-735, Social Security Administration: Additional Actions Needed in Ongoing Efforts to Improve
800-Number Service, August 8, 2005, p. 16.
3
    Id.
4
    GAO-05-735, supra, at p. 17.
Page 3 - The Commissioner


AUTOMATED SYSTEM OUTCOMES

The percentage of 800-number callers who chose to use the automated system was
33.3 percent in March 2006 and 35.3 percent in March 2007. In each month,
22.4 percent and 21 percent, respectively, of the callers who used the automated
services were re-routed to a live agent because of problems in completing the
automated transaction or requests to speak to a live agent before completing the
automated transaction. In addition, 22.6 percent and 16.4 percent of those who used
automated services hung up, that is, abandoned the automated system before
completing their transaction (see table below).

          800-Number Automation Outcomes                    March         March
                                                             2006         2007
  Total Calls Placed to the 800-Number                    7,396,073     6,662,739
  800-Number Callers Selecting the Automated System       2,461,102     2,352,578
  Percent of Total Calls to Automated System                 33.3          35.3
  Percent of Calls Completed in Automation                   51.5          60.4
  Percent of Calls Abandoned in Automation                   22.6          16.4
  Percent of Calls in Automation Rerouted to Agent           22.4           21
  Percent of Calls to After Hours Message                     0.3          0.6
  Percent of Calls Returned to Main Menu Incomplete           3.1          1.6

As the table shows, SSA realized some notable improvements in the performance of its
automated system. For example, the percentage of calls completed in automation
increased from 51.5 percent in March 2006 to 60.4 percent in March 2007.
Additionally, the percent of calls abandoned in automation declined from 22.6 percent
in March 2006 to 16.4 percent in March 2007.

We reviewed automation outcome data for FYs 2005 and 2006 and found that the
percentage of calls abandoned in automation improved from one year to the next.
However, the percentage of calls extended to a live agent increased from FY 2005 to
FY 2006. Fifty-two percent of the calls placed in automation were completed in
automation in both FYs 2005 and 2006. In FY 2005, 36 percent of the calls placed in
automation were abandoned, and 11 percent were extended to live agents. In
FY 2006, 22 percent of the calls placed in automation were abandoned, and 23 percent
were extended to live agents.

In terms of automation lessening the burden on live agents, the percentage of calls to
the 800-number that were placed with live agents was relatively the same—
63.9 percent in FY 2005 to 62.6 percent in FY 2006. While the 1.3 percent drop
between the FYs is an improvement, the overall volume of calls to the 800-number rose
between the FYs, from over 82.6 million calls in FY 2005 to over 88.4 million in
FY 2006. Accordingly, the number of calls to live agents rose from 52.8 million in
FY 2005 to 55.3 million in FY 2006.
Page 4 - The Commissioner


Automated Services

SSA’s 800-number automated system offers 11 automated services to callers, including
several with multiple subsets containing numerous data. Some subsets are caller
decision points while others are data elements that highlight, for example, language
differences (English versus Spanish) or technical differences (touch-tone versus
speech-enabled). Callers to the automated menu can request pamphlets on programs
or a Social Security Statement of earnings and benefits, listen to informational
messages, create passwords, switch to Direct Deposit for Social Security payments, or
notify the Agency of a change of address. As an example, initially a caller to the
automated system is prompted to conduct the call in English or Spanish. Then, the
caller selects 1 of the 11 menu service options (requests a pamphlet, for example) and
then is guided through multiple subsets to complete their transaction (which pamphlet,
                                   5
where to mail the pamphlet, etc.).

To determine the effectiveness of the automated services, we reviewed the detailed
management information available for each service. We found that different services
had varying completion rates. In fact, an average of nearly 46 percent and 42 percent
of the automated services had a 50 percent or less completion rate in March 2006 and
in March 2007 (for additional details, see Appendices C and D). In addition, some
automated services had completion rates of 20 percent or less (22 percent of the
services in March 2006 and 17 percent of the services in March 2007).

We found the automated services callers selected most frequently had completion rates
ranging from about 1 to 75 percent. The 20 automated services for March 2006 and
2007 with the heaviest transaction volume are detailed in Appendices E and F. We
                                                    6
identified the 20 most frequently accessed services and found that, in March 2006,
16 of the 20 heaviest used services had completion rates of 50 percent or less, while, in
March 2007, 14 of the 20 most frequently used services had completion rates of
50 percent or less. (See the table below for the distribution of the 20 busiest services
by completion rates).




5
    Throughout the report, we refer to the 11 automated services and all of their subsets as “services.”
6
   Some automated service transactions were pre-programmed to be “0 percent complete” or “never
complete.” These transactions were intended to capture data only on 800-number callers that either were
not qualified or did not have the information needed to use the selected services, so the transactions were
always defined as “never complete.” Also, some automated service transactions were
pre-programmed to be “100 percent complete” or “always complete.” These transactions provided
informational messages to the caller. The transactions were “always complete” even if the caller did not
listen to the entire message. We did not include these transactions in our analysis of the 20 most
frequently accessed services.
Page 5 - The Commissioner


                               20 Most Frequently Used Automated Services
 Completion Rate                  March 2006                 March 2007
                             Services     Volume       Services       Volume
  1 to 25 percent               5         244,915         5          122,477
 26 to 50 percent              11         617,419         9           646,584
 51 to 75 percent               4         388,502         6          292,783
 Total                         20       1,250,836        20        1,061,844

We also found some of the automated services were used less than others, with some
services rarely being selected. While over 2 million callers used SSA’s automated
services in March 2006, about 41 percent of SSA’s automated services had 100 or
fewer transactions, and 21 percent had 10 transactions or less. Similarly, while over
2 million callers used SSA’s automated services in March 2007, over 42.7 percent of
the automated services had 100 or fewer transactions, and 16.9 percent had
10 transactions or less.

Cost-effectiveness

Verizon charges SSA a basic usage fee for every call that is connected to the
800-number network (see Appendix G). The basic usage fee consists of flat rate fees,
as well as a charge for each minute the call is connected. Additionally, the Agency is
charged a flat rate fee for each automated system transaction selected by callers. The
fees for automated transactions are charged even if the caller hangs up before
completing their business.

SSA incurs additional costs if a caller is re-routed from the automated system to an
agent or requests to speak to an agent before completing the automated transaction.
In such instances, the Agency incurs the cost for the automated system transaction the
caller selected as well as the additional costs related to remaining on the telephone
longer to speak to an agent. Additional costs can be incurred when a caller abandons
their call in automation and re-dials the 800-number to speak to an agent to complete
their business. SSA incurs the cost of the unsuccessful use of the automated system,
including the basic usage fee, as well as the additional basic usage fee and time charge
for the additional call to the agent.

Spanish-language Callers

An average of 92 percent of callers who used the automated system in FYs 2006 and
2007 chose to use the English-language option, and 8 percent chose to use the
Spanish-language option. While Spanish-language callers used the automated system
far less, they had a much lower completion rate than English-language callers. In
March 2006, there were 103,994 Spanish-language transactions on the 800-number
automated services, and 54.5 percent of the callers hung up before completing their
business. Similarly, in March 2007, there were 101,710 Spanish-language transactions
Page 6 - The Commissioner


on the 800-number, and approximately 54.9 percent of the callers hung up before
completing their business. English-language callers had 31.21 and 28.3 percent
hang-up rates for March 2006 and March 2007, respectively.

Spanish-language callers do not have as many service options available as
English-language callers. If Spanish-language callers encounter problems while in an
automated option, they must either complete the option or hang up because they
cannot opt out or be rerouted to speak to an agent or leave a callback message during
non-business hours.

MANAGEMENT INFORMATION

We attempted to determine the reasons for the high rate of incomplete calls in the
800-number automated system but found SSA did not collect caller-level data, which
linked callers to their specific outcomes in the automated system. SSA did conduct
800-number caller contact surveys periodically. However, the surveys were based on
call data that did not specifically target 800-number callers who had negative outcomes
in the automated system. We wanted to use that type of specific information to contact
callers to find out why they did not successfully complete their calls in automation.
While Verizon supplies SSA with caller-level data for callers who choose to use the
automated services, the caller-level data do not link callers to outcomes and do not
distinguish whether a caller had a positive or negative outcome in the automated
system.

We asked SSA whether data matching individual telephone numbers to specific
outcomes were available. SSA informed us that the contract for 800-number services
with Verizon did not require that the contractor supply such data. On our behalf, the
Agency asked Verizon if such data were available and was told Verizon could provide
the data at an estimated cost of $57,780 for 1 day’s data. SSA reported that it did not
have the funding to acquire the data on our behalf.

Without these data, we could not effectively identify and contact callers who had a
negative outcome with the automated system. In our review of the two contracts to
which SSA is a party related to its 800-number, 7 we did not identify any language that
would prevent SSA from receiving this type of data at no additional costs. In addition, a
General Services Administration (GSA) contract specialist informed us that it appeared
most of the data elements we believed were needed to identify and contact callers with
negative outcomes in the automated system should be available at no additional costs
under the GSA Federal Technology Service 2001 contract. The Federal Technology
Service contract provides telecommunications service to Federal agencies. SSA is a
party to this contract, which is managed by GSA.

7
  GSA Federal Technology Service 2001 contract between GSA and Verizon Business, Contract
No. GS00T99NRD2002; and SSA Office of Finance and MCI WorldCom Communications, Inc., Contract
Number 0600-00-40649. MCI was purchased by, and officially merged with, Verizon Communications in
January 2006. SSA reported to us that the provision of the type of management information we requested
was addressed in the GSA Federal Technology Service 2001 contract.
Page 7 - The Commissioner


PERFORMANCE MEASURES AND GOALS

Although one of SSA’s automation goals is to reduce the burden on live agents, it does
not have predetermined and quantitative performance measures and goals to measure
                                                         8
the effectiveness of the 800-number automated system. We were unable to identify
any such goals in SSA’s Annual Performance Plan, Performance and Accountability
Report, or Office of Telephone Service’s Strategic Plan: FY 2005 – FY 2010. Without
quantitative performance measures and goals, SSA lacks an important tool to monitor
and determine whether the automated system is effectively serving the needs of callers.

CONCLUSION AND RECOMMENDATIONS
Based on our review, we believe SSA has been able to realize improvements in the
effectiveness of its 800-number automated service system. However, there are still
opportunities to improve the automated system to better serve the needs of its
customers. To ensure the 800-number automated service system serves SSA
customers in a cost-effective manner, we recommend SSA:

1. Have its Office of General Counsel determine whether SSA’s current 800-number
   service related contract(s) allow for the provision of management information that
   identifies 800-number callers with unsuccessful outcomes in the automated system
   at no additional cost to the Agency.

2. Ensure future contracts routinely provide management information needed to
   identify 800-number callers with unsuccessful outcomes in the automated system at
   no additional cost to the Agency.

3. Determine, once the necessary call data are obtained, why any of its automated
   options have low completion rates and take necessary steps to improve the service
   provided.

4. Develop quantitative performance measures and goals to measure the effectiveness
   of the automated service system.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix H for the full text of SSA’s
comments.



                                                     Patrick P. O’Carroll, Jr.

8
 The 800-number operation has two performance measures, neither related to automation, which are
monitored and reported in SSA’s Annual Performance Plan: Agent Busy Rate and Average Speed of
Answer.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Automated Services with Completion Rates of 50 Percent or Less:
             March 2006

APPENDIX D – Automated Services with Completion Rates of 50 Percent or Less:
             March 2007

APPENDIX E – Analysis of the 20 Most Frequently Used Automated Services:
             March 2006

APPENDIX F – Analysis of the 20 Most Frequently Used Automated Services:
             March 2007

APPENDIX G – Cost Data for 800-Number Network Transaction Charges

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
ASR    Automated Services Report
FO     Field Office
FY     Fiscal Year
GAO    Government Accountability Office
GSA    General Services Administration
OIG    Office of the Inspector General
OTS    Office of Telephone Services
OTSO   Office of Telecommunications and Systems Operations
SSA    Social Security Administration
                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed:

•   The Office of Quality Assurance and Performance Assessment’s 800-number
    Caller Survey Results for Fiscal Year (FY) 2005 that, in part, dealt with
    800-number callers’ experiences with the automated service system and
    difficulties reported.

•   The Office of Telephone Services (OTS) Strategic Plan FY 2005-FY 2010 —
    May 2006 to obtain an understanding of its plans and goals for using automation
    to improve public service and network efficiency of its 800-number telephone
    services.

•   The Social Security Administration’s (SSA) Office of the Inspector General Report,
    Performance Indicator Audit: 800-Number Access, September 2006.

•   A Government Accountability Office (GAO) report on Social Security
    Administration: Additional Actions Needed in Ongoing Efforts to Improve 800-
    Number Service, GAO-05-735, August 2005.

•   Documentation detailing the organization, service functions, and configuration of
    the 800-numbers automated system, including the network’s new speech-
    recognition technology.

•   Documentation describing the data elements used for maintaining statistical data,
    as well as management information reports.

•   Documentation describing the data elements used to monitor the performance of
    the automated service system, as well as management information reports.

•   The Federal Technology Service 2001 contract between the General Services
    Administration and Verizon Business for telecommunications services for federal
    agencies (Contract No. GS00T99NRD2002) to determine the contractual
    obligations of the vendor to provide toll-free services management information.

•   SSA’s contract with Verizon Business (Contract CCNS 0600-00-40649) to
    determine the vendor’s contractual obligations to provide 800-number related
    management information to the Agency.




                                          B-1
We interviewed OTS and Office of Telecommunications and Systems Operations staff
to gain an understanding of the management information used to track how callers’
experiences on the automated system are recorded, analyzed, and reported. We
analyzed the 800-number transaction data in the Automated Services Reports,
Password Services Reports, and Voice Portal Reports for the month of March 2006 and
the month of March 2007 to identify and compare trends in caller outcomes, and
performance of individual Automated Options. We also analyzed
800-number data for FYs 2005 and 2006.

We attempted to obtain caller-level data to identify callers with unsuccessful outcomes
within SSA’s 800-number automated system to determine why some callers did not
successfully use the automated system. However, we found that SSA did not maintain
such data on callers who used the automated service system. As a result, we were not
able to perform our caller contact survey as originally planned.

We performed our audit from December 2006 through May 2007. We were unable to
independently test the reliability of the data we used in our analyses because it was
maintained by an outside contractor (Verizon), and we were not provided access to its
source. Though, SSA reported to us that both Verizon and OTS test the reliability of
data. Accordingly, we determined it was reasonable to use this data to meet our audit
objectives.

The entities audited were the OTS under the Deputy Commissioner for Operations and
the Office of Telecommunications and Systems Operations under the Deputy
Commissioner for Systems. We conducted this audit in accordance with generally
accepted government auditing standards.




                                          B-2
                                                                    Appendix C

Automated Services with Completion Rates of
50 Percent or Less: March 2006
The table below contains data on the volume of transactions for the Social Security
Administration’s (SSA) 800-number automated services, which had completion rates of
50 percent or less in March 2006. The automated services are maintained in one of
three different management information databases: Automated Services Report (ASR),
Voice Portal Report, or Password Services Report. The Automated Service field in the
table lists the database that maintains the service, as well as the name of the
transaction (for example, “Pamphlets-Understand Facts” or “Password Services-Title
2”). The field also indicates whether the item was the first automated transaction or a
subsequent automated transaction selected by a caller. Lastly, it indicates the
technological platform of the item, that is, whether the caller selected to use the
Touchtone or Speak Freely Menus. The transactions selected refer to the number of
times the automated service was selected in the month and the completion rate refers
to the percentage rate of transactions that were completed.

       Automated Service                 Language      Transactions     Completion
                                          of Caller      Selected         Rate
 1.    ASR: Pamphlets-Understand           English                3         0.00%
       Facts-Subsequent Selections-
       Touchtone
 2.    Password Services-Title 2:         Spanish                   0         0.00%
       Overpayment Information-
       Touchtone
 3.    Password Services-Title 2:         Spanish                   0         0.00%
       Overpay Last-Touchtone
 4.    Password Services-Title 2:         Spanish                   0         0.00%
       Overpay Next-Touchtone
 5.    Password Services-Password         Spanish                 61          1.64%
       Change-Touchtone
 6.    Password Services-Password         Spanish              2,540          2.40%
       Use-Touchtone
 7.    Password Services-Password         Spanish                 75          2.67%
       Block-Touchtone
 8.    Password Services-Password          English               559          4.47%
       Block-Touchtone
 9.    Password Services-Password          English               177          6.21%
       Change-Touchtone
 10.   Password Services-Password         Spanish                258          7.75%
       Registration-Touchtone


                                          C-1
      Automated Service                 Language     Transactions    Completion
                                         of Caller     Selected        Rate
11.   Password Services-Password          English               86       8.14%
      Change-Speech
12.   ASR: Mainframe-Change of           English           41,901        9.49%
      Address/Telephone Number-
      Knowledge Based
      Authentication-Primary
      Selections-Speech
13.   ASR: Mainframe-Change of           English           63,110       10.24%
      Address-Knowledge-Based
      Authentication-Subsequent
      Selection
14.   ASR: Mainframe-Change of           English            2,684       12.63%
      Address/Telephone Number-
      Knowledge Based
      Authentication-Primary
      Selections-Speech
15.   ASR: Mainframe - Speech            English               78       12.82%
      Application for Direct Deposit-
      Password-Subsequent
      Selections-Speech
16.   ASR: Mainframe-Change of           English              872       12.84%
      Address-Speech Application for
      Direct Deposit
17.   ASR: Mainframe-Change of           English            2,418       13.28%
      Address-Knowledge Based
      Authentication-Subsequent
      Selection-Touchtone
18.   ASR: Mainframe-Speech              English              597       14.07%
      Application for Change of
      Address/Telephone Number-
      Primary Selections-Touchtone
19.   Password Services: Get             Spanish            1,259       15.49%
      Password Request Code-
      Touchtone
20.   Password Services: Password        English              115       15.65%
      Block Access-Speech
21.   Password Services: Password        English              690       15.94%
      Block Access-Speech
22.   ASR: Mainframe-Speech              English           31,491       16.16%
      Application for Direct Deposit
      Application-Password
      Authentication-Primary
      Selections-Touchtone
23.   Title 16-Payment-Touchtone         Spanish               11       18.18%


                                        C-2
      Automated Service                 Language     Transactions    Completion
                                         of Caller     Selected        Rate
24.   ASR: Mainframe-Application for      English            2,626      18.20%
      Direct Deposit-Knowledge
      Based Application-Primary
      Selections-Touchtone
25.   ASR: Mainframe-Application for     English           36,709       18.80%
      Direct Deposit-Password
      Authentication-Primary
      Selections-Speech
26.   ASR: Mainframe-Direct              English              646       18.89%
      Deposit-Password
      Authentication-Primary
      Selections-Speech
27.   ASR: Mainframe-Direct              English               62       19.35%
      Deposit-Primary Selection
28.   ASR: Forms-S-Med                   English                5       20.00%
      Application-Primary Selections-
      Speech
29.   ASR: Pamphlets Survivors-          Spanish                5       20.00%
      Primary Selection
30.   ASR: Mainframe-MED CARD-           English            3,714       20.11%
      Voice Capture Application-
      Primary Selections-Touchtone
31.   ASR: Mainframe-Change of           English               49       20.41%
      Address-Subsequent
      Selections-Speech
32.   ASR: Mainframe-Application for     English            2,618       21.43%
      Direct Deposit-Knowledge
      Based Authentication
      Subsequent Selections-Speech
33.   ASR: Mainframe-Speech              English            9,564       23.13%
      Application for Replacement
      Medicare Card-Subsequent
      Selections-Speech
34.   ASR: Mainframe-Change of           English               50       24.00%
      Address-Subsequent
      Selections-Speech
35.   ASR: Mainframe-Application for     English           71,704       24.67%
      Replacement Medicare Card-
      Primary Selections-Touchtone
36.   ASR: Mainframe-Pamphlets -         Spanish                4       25.00%
      SS Women-Primary Selections-
      Touchtone




                                        C-3
      Automated Service                  Language     Transactions   Completion
                                          of Caller     Selected       Rate
37.   ASR: Mainframe-Application for       English          59,083      25.57%
      Benefits Verification-Primary
      Selections-Touchtone
38.   ASR: Mainframe-Application for      English            5,515      26.94%
      Benefit Verification-Proof of
      Income-Subsequent Selections-
      Touchtone
39.   Password Services-Title 16:         English             505       29.31%
      Payment-Speech
40.   Password Services-Password          English            6,255      29.59%
      Registration: Payment-
      Touchtone
41.   Password Services-Get               English           17,790      29.95%
      Password-Touchtone
42.   ASR: Mainframe-Application for      English            2,488      30.51%
      Benefits Verification-
      Subsequent Selection-Speech
43.   ASR: Mainframe-Speech               English           53,466      32.19%
      Application for Replacement
      Medicare Card-Subsequent
      Selections-Speech
44.   Password Services-Password          English            7,844      33.08%
      Registration-Speech
45.   ASR: Forms M Voice Capture          English               6       33.33%
      Application Request for a Social
      Security Card Form SS5-
      Primary Selection-Touchtone
46.   Password Services-Get A             English            5,845      33.98%
      Password Request Code-
      Speech
47.   ASR: Mainframe-Application for      English           33,764      35.50%
      Benefits Verification-
      Subsequent Selection-Speech
48.   ASR: Database–Field Office          Spanish           36,585      35.54%
      Location-Primary Selection-
      Touchtone
49.   Password Services-Password          English           12,786      35.88%
      Use-Touchtone
50.   Voice Portal: Speech Menu:          English          193,707      37.52%
      Application for Social Security
      Card-Form SS5




                                         C-4
      Automated Service                   Language     Transactions    Completion
                                           of Caller     Selected        Rate
51.   ASR: Forms-S-Med1020-                 English            3,397      38.83%
      Application for a Social Security
      Statement- Primary Selections-
      Touchtone
52.   ASR: Forms M Voice Capture           Spanish               50       40.00%
      Application Request for a Social
      Security Statement-Form 7004-
      Primary Selections-Touchtone
53.   ASR: Forms m-Request for             English              481       42.20%
      Social Security Card-Form SS5-
      Primary Selection-Touchtone
54.   Voice Portal: Main Menu:             English          119,681       42.29%
      Request for a Social Security
      Card-Form SS5
55.   Voice Portal: Main Menu:             English           36,317       42.67%
      Request for a Social Security
      Statement-Form 7004
56.   ASR: Pamphlets-Work Affects-         Spanish                7       42.86.%
      Primary Selection-Touchtone
57.   ASR: Forms-S Speech                  English           33,763       43.69%
      Application for Help with
      Medicare Prescription Drug Plan
      Costs-Form 1020 –Primary
      Selection-Touchtone
58.   ASR: Forms-S-Speech                  English           20,477       43.75%
      Application for Help with
      Medicare Prescription Drug Plan
      Costs-Form 1020-Subsequent
      Selection-Speech
59.   Voice Portal: Main Menu:             English            3,387       44.52%
      Pamphlet
60.   ASR: Database-Field Office           English            3,515       44.86%
      Locator-Primary Selection-
      Primary Selection-Touchtone
61.   Voice Portal: Speech Menu:           English            2,820       45.43%
      Pamphlet
62.   ASR: Forms-M-Application for         Spanish              602       46.68%
      M-PEB-SS5-Touchtone
63.   Password Services-Title 16:          English            1,028       47.67%
      Payment-Touchtone
64.   ASR: Forms-M Application for         Spanish           11,263       48.98%
      Replacement Card-Primary
      Selections-Touchtone



                                          C-5
      Automated Service               Language     Transactions   Completion
                                       of Caller     Selected       Rate
65.   ASR: Forms-M PEB 7004             English               2         50%
      Request for Replacement Card-
      Primary Selections-Touchtone




                                      C-6
                                                                      Appendix D

Automated Services with Completion Rates of
50 Percent or Less: March 2007
The table below contains data on the volume of transactions for the Social Security
Administration’s (SSA) 800-number’s automated services, which had completion rates
of 50 percent or less in March 2007. The automated services are maintained in one of
three different management information databases: Automated Services Report (ASR),
Voice Portal Report, or Password Services Report. The Automated Service field in the
table lists the database that maintains the service, as well as the name of the
transaction (for example, “Password Services-Password Change” or “Voice Portal-
Application for Social Security Card”). The field also indicates whether the item was the
first automated transaction or a subsequent automated transaction selected by a caller.
Lastly, it indicates the technological platform of the item, that is, whether the caller
selected to use the Touchtone or Speak Freely Menus. The transactions selected refer
to the number of times the automated service was selected in the month and the
completion rate refers to the percentage rate of transactions that were completed.

        Automated Service                 Language     Transactions      Completion
                                           of Caller     Selected          Rate
  1.    Password Services:                 Spanish                91          0.00%
        Password Change-Touchtone
  2.    Password Services: Title 16        Spanish                  2           0.00%
        Information Menu: Payment-
        Touchtone
  3.    Voice Portal: Main Menu-           English                 19           0.00%
        Application for Social Security
        Card Form SS5-
  4.    Voice Portal: Main Menu-           English                  5           0.00%
        Pamphlet
  5.    Password Services: Get A           Spanish              1,247           0.08%
        Password Request Code-
        Touchtone
  6.    Password Services:                 Spanish                323           0.31%
        Password Registration-
        Touchtone
  7.    Password Services:                 English             12,467           1.46%
        Password Registration-
        Speech
  8.    Password Services: Get A           English             12,495           1.85%
        Password Request Code-
        Speech


                                           D-1
9.    Password Services:             Spanish    2,587   2.16%
      Password Use-Touchtone
10.   Password Services:             English     329    6.69%
      Password Block Access-
      Speech
11.   Password Services:             English     188    6.91%
      Password Change-Speech
12.   Password Services:             Spanish     147    7.48%
      Password Block Access-
      Touchtone
13.   Voice Portal: Main Menu-       English       7    14.29%
      Form-7004
14.   ASR: Mainframe-Change of       English   71,420   17.75%
      Address-Knowledge-Based
      Authentication-Primary
      Selections-Speech
15.   ASR: Mainframe-Application     English    7,842   19.13%
      Change of Address
      Knowledge Based
      Authentication-Subsequent
      Selections-Speech
16.   ASR: Forms-M Request for a     Spanish       9    22.22%
      Social Security Statement
      PEB 7004-Subsequent
      Selections-Touchtone
17.   ASR: Mainframe-Application     English     827    23.82%
      for Change of
      Address/Telephone Number-
      Password Authentication-
      Primary Selections-Speech
18.   ASR: Mainframe-Application     English   18,253   25.37%
      for Replacement Medicare
      Card-Subsequent Selections-
      Speech
19.   ASR: Mainframe-Application     English   59,042   28.86%
      for Direct Deposit-Knowledge
      Based Authentication-Primary
      Selections-Speech
20.   ASR: Mainframe-Application     English   76,549   29.79%
      for Replacement Medicare
      Card-Primary Selections-
      Speech
21.   ASR: Mainframe-Application     English    8,325   30.53%
      for Direct Deposit-Knowledge
      Based Authentication-
      Subsequent Selections-


                                     D-2
      Speech
22.   Password Services:                English     5,063   30.89%
      Password Use-Speech
23.   ASR: Mainframe-Change of          English       90    31.11%
      Address Password
      Authentication-Subsequent
      Selections-Speech
24.   ASR: Database-Field Office        Spanish    34,216   34.95%
      Locator-Primary Selections-
      Touchtone
25.   ASR: Forms-M PEB-SS5              Spanish       84    36.90%
      Application for Social Security
      Card-Subsequent Selections-
      Touchtone
26.   ASR: Mainframe-Benefit            English    63,675   37.15%
      Verification-Primary
      Selections-Speech
27.   ASR: Mainframe-Benefit            English     8,875   38.46%
      Verification-Subsequent
      Selections-Speech
28.   ASR: Pamphlets-Survivors-         Spanish        5    40.00%
      Primary Selections-
      Touchtone
29.   Voice Portal: Speech Menu-        English   363,297   40.14%
      Application for Social Security
      Card Form SS5
30.   ASR: Database-Field Office        Spanish     3,940   43.38%
      Locator-Subsequent
      Selections-Touchtone
31.   ASR: Forms-M - Peb-SS5            Spanish      694    43.80%
      Application for Social Security
      Card-Touchtone
32.   ASR: Forms-S-Application          English    22,088   44.39%
      for Help with Medicare
      Prescription Drug Plan Costs-
      MED 1020-Subsequent
      Selections-Speech
33.   ASR: Forms-M Request for a        Spanish       54    44.44%
      Social Security Statement-
      Peb7004-Primary Selections-
      Touchtone
34.   ASR: Mainframe-Speech             English      973    45.73%
      Application for Direct Deposit-
      Password Authentication-
      Primary Selections-Speech
35.   ASR: Mainframe-Speech             English      146    46.58%


                                        D-3
      Application for Direct Deposit-
      Password Authentication-
      Subsequent Selections-
      Speech
36.   Forms-M Voice Capture             Spanish   10,517   48.07%
      Application for Replacement
      Medicare Card-Primary
      Selections-Touchtone
37.   ASR: Pamphlets Voice              Spanish      10    50.00%
      Capture Application-SS
      Women-Primary Selections-
      Touchtone




                                        D-4
                                                                      Appendix E

Analysis of the 20 Most Frequently Used
Automated Services: March 2006
The table below contains data on the volume of transactions for the Social Security
Administration’s (SSA) 800-number’s automated services which were the 20 most
frequently used in March 2006. The automated services are maintained in one of three
different management information databases: Automated Services Report (ASR),
Voice Portal Report, or Password Services Report. The Automated Service field in the
table lists the database that maintains the service, as well as the name of the
transaction (for example, “ASR-Field Office Locator” or “Voice Portal-Form SS5”). The
field also indicates whether the item was the first automated transaction or a
subsequent automated transaction selected by a caller. Lastly, it indicates the
technological platform of the item, that is, whether the caller selected to use the
Touchtone or Speak Freely Menus. The transactions selected refer to the number of
times the automated service was selected in the month and the completion rate refers
to the percentage rate of transactions that were completed.

Some automated service transactions were pre-programmed to be “0 percent complete”
or “never complete.” These transactions were intended to capture data only on 800-
number callers that either were not qualified or did not have the information needed to
use the selected services, so the transactions were always defined as “never
complete.” Also, some automated service transactions were pre-programmed to be
“100 percent complete” or “always complete.” These transactions provided
informational messages to the caller. The transactions were “always complete” even if
the caller did not listen to the entire message. We did not include these transactions in
our analysis of the 20 most frequently accessed services.

       Automated Service                   Language      Transactions     Completion
                                            of Caller      Selected         Rate
 1.    ASR: Field Office Locator –           English           259,501       61.57%
       Primary Selections-Touchtone
 2.    Voice Portal Report: Speech           English            193,707        37.52%
       Menu: Form SS5
 3.    Voice Portal Report: Main Menu:       English            119,681        42.29%
       Form SS5
 4.    ASR: Database-Field Office            English             93,965        74.82%
       Locator-Primary Selections-
       Speech
 5.    ASR: Application for                  English             71,704        24.67%
       Replacement Medicare Card-
       Primary Selections-Touchtone


                                           E-1
      Automated Service                   Language     Transactions    Completion
                                           of Caller     Selected        Rate
6.    ASR: Speech Application for           English           63,110      10.24%
      Change of Address/Telephone
      Number-Knowledge Based
      Authentication-Primary
      Selections-Speech
7.    ASR: Voice Capture Application        English          59,083       25.57%
      for Benefit Verification –Primary
      Selections-Touchtone
8.    ASR: Speech Application for           English          53,466       32.19%
      Replacement Medicare Card-
      Primary Selections-Speech
9.    ASR: Application for Change of        English          41,901        9.49%
      Address/Telephone Number-
      Knowledge Based
      Authentication-Primary
      Selections-Touchtone
10.   ASR: Mainframe-DD-KB-                 English          36,709       18.79%
      Primary Selection-Speech
11.   ASR: Field Office Locator-           Spanish           36,585       35.54%
      Database
12.   Voice Portal-Form 7004-Speech         English          36,317       42.67%
13.   ASR: Ben Ver-Mainframe-               English          33,764       35.50%
      Speech
14.   ASR: Form S Med 1020-                 English          33,763       43.69%
      Primary Selection -Touchtone
15.   ASR: Mainframe-DD-KB-                 English          31,491       16.16%
      Primary Selection-Touchtone
16.   ASR: Forms-S MED 1020-                English          20,477       43.75%
      Subsequent Selection-Speech
17.   ASR: Forms-M SSS-Primary             Spanish           18,070       52.10%
      Selection
18.   PSR: Password Services: Get           English          17,790       29.95%
      PRC
19.   ASR: Database-Field Office            English          16,966       68.89%
      Locator
20.   Password Services: PW Use             English          12,786       35.88%




                                          E-2
                                                                      Appendix F

Analysis of the 20 Most Frequently Used
Automated Services: March 2007
The table below contains data on the volume of transactions for the Social Security
Administration’s (SSA) 800-number’s automated services which were the 20 most
frequently used in March 2007. The automated services are maintained in one of three
different management information databases: Automated Services Report (ASR),
Voice Portal Report, or Password Services Report. The Automated Service field in the
table lists the database that maintains the item, as well as the name of the transaction
(for example, “ASR-Medicare-Drug Program” or “Voice Portal-Form SS5”). The field
also indicates whether the item was the first automated transaction or a subsequent
automated transaction selected by a caller. Lastly, it indicates the technological
platform of the item, that is, whether the caller selected to use the Touchtone or Speak
Freely Menus. The transactions selected refer to the number of times the automated
service was selected in the month and the completion rate refers to the percentage rate
of transactions that were completed.
Some automated service transactions were pre-programmed to be “0 percent complete”
or “never complete.” These transactions were intended to capture data only on 800-
number callers that either were not qualified or did not have the information needed to
use the selected services, so the transactions were always defined as “never
complete.” Also, some automated service transactions were pre-programmed to be
“100 percent complete” or “always complete.” These transactions provided
informational messages to the caller. The transactions were “always complete” even if
the caller did not listen to the entire message. We did not include these transactions in
our analysis of the 20 most frequently accessed services.

      Automated Service                    Language      Transactions      Completion
                                            of Caller      Selected          Rate
1.    Voice Portal: Speech Menu-Form         English          363,297         40.14%
      SS5
2.    ASR: Field Office Locator              English           204,060          69.90%
3.    ASR: Voice Capture Application         English            76,549          29.79%
      for Replacement Medicare Card
4.    ASR: Application for Change of         English             71,420         17.75%
      Address/Telephone Number-
      Knowledge-Based Authentication)
5.    ASR: Mainframe-Benefits                English             63,675         37.15%
      Verification-Primary Selections-
      Speech



                                           F-1
      Automated Service                 Language     Transactions   Completion
                                         of Caller     Selected       Rate
6.    ASR: Application for Direct         English          59,042      28.86%
      Deposit-Knowledge-Based
      Authentication-Primary
      Selections-Speech
7.    ASR: Field Office Locator           English          40,632       67.75%
      Database-Subsequent Selections-
      Speech
8.    ASR: Field Office Locator          Spanish           34,216       34.95%
      Database-Primary Selections-
      Touchtone
9.    ASR: Form S MED 1020 –              English          22,088       44.39%
      Subsequent Selection-Speech
10.   ASR: Mainframe-MED Card-            English          18,253       25.37%
      Subsequent Selection-Speech
11.   ASR: Form SS5-Primary              Spanish           17,953       52.04%
      Selection-Touchtone
12.   Password Services: Obtain PRC-      English          12,495        1.85%
      Speech
13.   Password Services: Password         English          12,467        1.46%
      Reg-Speech
14.   Voice Portal: 7004 Menu-Speech     English           12,336       64.07%
15.   ASR: Form M-Bene-Primary           Spanish           11,421       56.14%
      Selection-Touchtone
16.   ASR: Form M-MED Card-Primary       Spanish           10,517       48.07%
      Selection-Touchtone -Touchtone
17.   ASR: Mainframe BEN VER-             English           8,875       38.46%
      Subsequent Selection-Speech
18.   ASR: Mainframe Direct Deposit-      English           8,325       30.53%
      Subsequent Selection-Speech
19.   ASR: Mainframe-Change of            English           7,842       19.13%
      Address-Knowledge-Based
      Authentication
20.   ASR: Forms-M-Pebes-Primary         Spanish            6,381       56.28%
      Selection




                                        F-2
                                                                  Appendix G

Cost Data for 800-Number Network Transaction
Charges
The table below details the fees Verizon charges SSA for calls connected to the
800-number network. The fees consist of flat rate fees, as well as a charge for each
minute the call is connected. The Agency is also charged a flat rate fee for each
automated system transaction selected by callers. The fees for automated transactions
are charged even if callers hang up before completing their business.


 National 800-Number Network Basic Charges           Cost              Unit
 Usage Fee                                          $0.0160         Per minute
 Database Access/Menu Routing                       $0.0300          Per call
 Speak Freely Main Menu                             $0.0856          Per call
 Transaction Type                                    Cost              Unit
 Change of Address/Telephone                        $0.1284    Per completed call in
 Number(Knowledge Based and Password                                automation
 Authentication)
 Direct Deposit                                     $0.1284    Per completed call in
                                                                    automation
 Benefit Verification                               $0.2900    Per completed call in
                                                                    automation
 Medicare Options
 Request for Replacement Medicare Card              $0.2900    Per completed call in
 (Modified Knowledge Based Authentication)                          automation
 Request for SSA-1020 (with message)                $0.2900    Per completed call in
                                                                    automation
 Message: Medicare Prescription Drug Program          Not
                                                    Charged
 Social Security Card Application                   $0.2900    Per completed call in
 (Form SS-5) Spanish Manual Transcription                           automation
 Field Office Locator Database                        Not
                                                    Charged
 Password Services
 Password Services Account Status (Check your         Not
 benefits)                                          Charged
 Social Security Statement Options
 Form SSA-7004: To request Social Security          $0.2900    Per completed call in
 Statement                                                          automation
 Form SSA-7004: To request SS Statement with        $0.2900    Per completed call in
 Different Estimates of Future Earnings                             automation


                                         G-1
Form SS-5: To correct Name or Date of Birth         $0.2900   Per completed call in
                                                                   automation
Spanish Manual Transcription                        $0.4483   Per completed call in
                                                                   automation
Message: Why Social Security Statement Was            Not
Sent                                                Charged
Message: Address on Social Security Statement         Not
                                                    Charged
Transaction Type                                     Cost             Unit
Message: Earnings This Year/Last Year on              Not
Social Security Statement                           Charged
Pamphlet Requests
Pamphlet: Understanding the Benefits                $0.2900   Per completed call in
                                                                   automation
Pamphlet: Retirement Benefits                       $0.2900   Per completed call in
                                                                   automation
Pamphlet: Disability Benefits                       $0.2900   Per completed call in
                                                                   automation
Pamphlet: Survivors Benefits                        $0.2900   Per completed call in
                                                                   automation
Pamphlet: How Work Affects Your Benefits            $0.2900   Per completed call in
                                                                   automation
Pamphlet: Benefits for Children with Disabilities   $0.2900   Per completed call in
                                                                   automation
Pamphlet: What Every Woman Should Know              $0.2900   Per completed call in
                                                                   automation
Spanish Manual Transcription                        $0.4483   Per call completed in
                                                                  transcription
Informational Messages
Message: Payment Delivery Dates                       Not
                                                    Charged
Message: Direct Deposit                               Not
                                                    Charged
Message: Best Times to Call 800-Number                Not
                                                    Charged
Message: SSA Internet Address and Services            Not
                                                    Charged
Message: Supplemental Security Income                 Not
         Message                                    Charged
Message: SSA-1099 Benefit Statement                   Not
                                                    Charged
Message: Cost-of-Living Adjustment                    Not
                                                    Charged




                                         G-2
                        Appendix H

Agency Comments




                  H-1
                                         SOCIAL SECURITY


MEMORANDUM


Date:      October 4, 2007                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "The Effectiveness of the Social Security
           Administration’s 800-Number Automation” (A-02-07-17049)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         H-2
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE EFFECTIVENESS OF THE SOCIAL SECURITY
ADMINISTRATION’S 800-NUMBER AUTOMATION SERVICE” (A-02-07-17049)

Thank you for the opportunity to review and provide comments on this draft report. The
objective of the report was to review the effectiveness of our 800-number automation service.
However, the report only attempts to evaluate the effectiveness of automated services based on
management information about completion and abandonment. We believe this type of evaluation
is of limited use because it does not include a caller perspective. In addition, it seems to be based
on two presumptions we do not believe are supportable, in light of various surveys we have
conducted with 800-number callers; i.e., that 1) every automated service accessed represents the
real reason for the call; and 2) inadequacy of the service is measured by a caller not completing
their business through the automated service. For example, our 800-Number Speech Recognition
Survey, released in December 2006, included about 400 callers who, according to the
management information, had used the automated service for change of address or direct deposit.
However, when asked why they called the 800-number that day, about
40 percent said the main reason for their call was something else. The survey was conducted
based on contacts in March 2006, when half the callers had received the touchtone and half the
speech recognition menu. Regardless of the menu system encountered, the proportion of
“inadvertent” selections was the same: Callers using the touchtone system selected automated
services they did not want; callers using the speech recognition system expressed what they were
calling about in a way that directed them to an automated service that did not meet their needs.

We note that OIG recognizes the need for a caller perspective, but explains that a survey was not
pursued because of the inability to target a sample of automated service users with unsuccessful
outcomes. However, relevant information about callers who have accessed automated services,
both successfully and unsuccessfully, can be obtained from more generalized samples of
800-number callers, as we have done in our annual 800-Number Caller Surveys and in several
special study surveys. The Fiscal Year 2006 800-Number Caller Survey addressed the reasons
callers who had used an automated service were unable to complete all of their business in the
automated services. The majority of the responses reflected the following caller choice or
circumstances: 23 percent - wanted the reassurance of talking to an agent; 22 percent – the
automated service did not cover the caller’s specific situation; 14 percent – had other business
that could not be handled through an automated service; and 6 percent – the caller did not have
the necessary information available. Another 22 percent of responses indicated the system
advised the caller of the need to transfer to an agent, which could be a reflection of our screening
criteria working as intended. Only 8 percent said it was just too hard to use the automated
service.

Our comments on the draft recommendations are as follows.




                                                H-3
Recommendation 1

Have its Office of General Counsel determine whether SSA’s current 800-number service related
contract(s) allow for the provision of management information that identifies 800-number callers
with unsuccessful outcomes in the automated system at no additional cost to the Agency.

Comment

We agree. We will evaluate the current contracts to determine if we can obtain management
information that identifies 800-number callers with unsuccessful outcomes in the automated
system at no additional cost.

Recommendation 2

Ensure future contracts routinely provide management information needed to identify
800-number callers with unsuccessful outcomes in the automated system at no additional cost to
the Agency.

Comment

We agree. We will ensure that future contracts include the requirement that a contractor provide
such management information (this requirement would be included as part of the statement of
work). However, it should be noted that this type of information may come at a cost. We believe
even if the collection and reporting of management information for the
800-number environment is not a lined charge item in the contract, the cost of that service will be
rolled into some greater part of the total price of the contract. If so, we must weigh the
incurrence of such a cost with other competing Agency priorities.

Recommendation 3

Determine, once the necessary call data are obtained, why any of its automated options have low
completion rates and take necessary steps to improve the service provided.

Comment

We agree. Once the data is made available, we will utilize the information as a tool to identify
problems/weaknesses in our automated service applications. We will also work to improve the
service and caller experience of our 800-number callers.

Recommendation 4

Develop quantitative performance measures and goals to measure the effectiveness of the
automated service system.




                                               H-4
Comment

We agree. We plan to develop outcome-oriented performance measures with targets that
promote continuous improvement in order to assess the ongoing effectiveness of the 800-number
automated service system. We expect to start the development of the performance measures and
goals in Fiscal Year 2008.




                                             H-5
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, 212-264-5295

   Victoria Abril, Audit Manager, 212-264-0504

Acknowledgments

In addition to those named above:

   Christine Hauss, Senior Program Analyst, 212-264-5826

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-02-07-17049.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
